  +>~AMTRAt
      NATIO NAL RA ILROAD
      PASSENGER COR PORATION
                                          Office of Inspector General


Memorandum
To:            Gerald Sokol, Jr. Chief Financial Officer
               Paul Vilter, Acting Chief Logistics Officer
            ~~ t.UJ~
From:          David R. Warren, Assistant Inspector General, Audits

Date:          March 26, 2014

Subject:       Closeout Memorandum - Controls over the Disposition of Equipment
               Purchased with ARRA Funds (Audit Project number 005-2013)


In March 2013, the Office of Inspector General initiated an audit of controls over the
disposition of equipment purchased with ARRA funds (see enclosure). The audit
objective was to assess the adequacy of controls over equipment purchased with ARRA
funds, including controls over the disposition of equipment.

During the survey phase of the audit, the scope of work performed was limited to six
ARRA contracts selected for review and a sample of equipment purchased directly by
Amtrak. The six selected ARRA contracts included four contracts valued at $169 million
awarded by Procurement, and two contracts valued at $121 million awarded by
Amtrak's Program Manager.

During the survey, OIG audit personnel interviewed individuals responsible for ARRA
projects, analyzed documents associated with equipment purchases and dispositions,
and reviewed selected contracts, policies and procedures, and invoice files.

Based on our survey work, we did not identify any reportable issues. Therefore, we will
close this audit assignment upon issuance of this memorandum. We appreciate the time
and cooperation provided by Amtrak personnel during the course of our work. If you
or your staff have any questions, or need additional information, please do not hesitate
to contact me at David.Warren@amtrakoig.gov or 202.906.4742, or Dan Krueger, Senior
Director, Audits, at daniel.krueger@amtrakoig.gov, or 312.382.5303.
Enclosure


cc:   DJ Stadtler, Vice President, Operations
      Eleanor Acheson, Vice President, General Counsel
      William Herrmann, Managing Deputy General Counsel
      Diane Herndon, Managing Deputy General Counsel
      Bernard Reynolds, Deputy Logistics Officer, Procurement
      Matthew Gagnon, Senior Director, Amtrak Controls
      Melantha Paige, Internal Controls Analyst
                                                                                             Endosure


      ~AMTRAK
      NATI ONA L RA ILR OAD
      PA SS ENGER COR PO RA TI ON              Office of Inspector General            ®
Memorandum
To:             Gordon Hutchinson, Acting Chief Financial Officer

From:           David Warren        ~~~~:J e l()c'.2--viu~--­
                Assistant Inspector General, Audits

Date:           March 8, 2013

Subject:        Controls over the Disposition of Equipment Purchased with ARRA Funds


The Office of Inspector General is initiating an audit of equipment purchased under ARRA
contracts. The objective of this audit is to assess the adequacy of controls over the disposition
of equipment such as computers, furniture, and tools purchased with ARRA funds.

During the audit, OIG audit personnel will meet with individuals responsible for ARRA
contract management, analyze documents associated with equipment purchases, and review
contract and invoice files. We will perform our audit work in accordance with Generally
Accepted Government Auditing Standards (GA GAS).

We request that your office arrange an entrance conference for us with the appropriate
Amtrak officials at the earliest possible date. We will keep you advised of the status of our
work and any material changes in our audit objectives.

Dan Krueger will be the Senior Director and Jana Brodsky will be the Auditor-in-Charge for
this audit. If you have any questions, please contact me, (David.Warren@amtrakoig.gov,
202 906-4742) or Dan Krueger (Daniel.Krueger@amtrakoig.gov, 312 382-5303).


cc:     Ted Alves, Inspector General
        Tom Howard, Deputy Inspector General
        DJ Stadtler, Vice President, Operations
        Jeff Martin, Chief Logistics Officer
        Bernard Reynolds, Deputy Logistics Officer, Procurement
        William Herrmann, Managing Deputy General Counsel
        Robert Thomas, Assistant Controller
        Melantha Paige, Internal Controls Analyst
        Todd Havens, Director of Risk and Compliance Services, KPMG
